O if/© 7-/2/
\

no

\o - IS’OX

Supreme Court of the United States
Joyce Rowley, PetitionepI^ |p|

V.

p.p ifl 1

iiJi n
111
1 111J

M jy| 1

City of New Bedford, Respondent
(

Petition for a Writ of Certiorari to the
United States Court of Appeals for the
First Circuit

FILED
APR 01 2021

PETITION FOR WRIT OF CERTIORARI

OFFICE OF THE CLERK
SUPREME COURT, U.S,

Joyce Rowley, Pro Se
Plaintiff-Appellant
PO Box 50251
New Bedford, MA 02745
Phone: 508-542-8297

April'S 2021

RECEIVED
APR - 9 2021
OFFICE OF THE CLERK
SUPREME COURT, UJ,

0)

Questions Presented for Review
Question #1
l.A. Does the harassment exception only apply to members of
endangered species in captivity for breeding to promulgate the
selected species to meet the goals of the Act?
l.B. Did the First Circuit err in affirming the lower court's decision
without performing a de novo review on the question of the
harassment exception and on harm?
l.C. Is the First Circuit opinion inconsistent with other courts by
affirming substitution of the AZA for the USDA in determining
compliance with the Animal Welfare Act?
Question #2
Is the First Circuit opinion consistent with Federal Rule 65(a)(2) case
law on consolidation of a preliminary injunction hearing with a trial
on the merits and is it inconsistent with its own and Supreme Court
rulings regarding consolidation?

00

n

n

x

LIST OF PARTIES
Joyce Rowley, Petitioner, pro se
PO Box 50251
New Bedford, MA 02745
Phone:508-542-8297
City of New Bedford, MA, Respondent
John Markey, Esq.
Markey & Walsh, LLC
50 Homer's Wharf
New Bedford, MA 02740
508-993-9711
Animal League Defense Fund and People for Ethical Treatment of
Animals, Amici
Jeffrey P. Richter, Esq.
K & L Gates, LLP
210 Sixth Avenue
Pittsburgh, PA 15222
Ph: 412.355.6500

(iii)

o

n
TABLE OF CONTENTS

Opinions Below....

1

Jurisdiction.........

2

Statement of Case

3

Argument...............................

,4

❖ Response to Question #1:

8

l.A. Properly interpreted, the harassment exception only
applies to members of endangered species in captivity for
breeding to promulgate the selected species to meet the goals of
the Act
8
l.B. The First Circuit erred in affirming the lower court's
decision without performing a de novo review,
13
l.C. The First Circuit opinion is inconsistent with other courts by
affirming substitution of the AZA for the USDA in determining
compliance with the Animal Welfare Act,
16
❖ Response to Question #2:....................................................... 21
Affirming the lower court's consolidation of the preliminary
injunction with the trial on the merits was was in conflict with
prior First Circuit decisions, other Circuits and the Supreme
Court
Conclusion

23

(iv)

n

INDEX TO APPENDICES
Appendix A. First Circuit Court of Appeals Opinion (19-2000,
Unpublished);
Appendix B. U.S. District Court, Massachusetts District;
Appendix C. U.S. District Court, Order (17-cv-11809, Docket No. 60)
Appendix D. First Circuit Court of Appeals, Petition for Rehearing
Denied

Table of Authorities
Cases
American Bald Eagle v. Bhatti. 9 F. 3d 163,1st Cir. (1993)
ASPCA v. RBBB. Inc, et al. 502 F.Supp.2d 103 (2007)
Caribbean Produce Exch. Inc, v Sec’v of Health & Human Services. 893
F.2d 3,5,1st Cir. (1989)
Chevron USA. Inc, v. Natural Res. Def. Council. Inc.. 467 U.S. 837,84243,104 *109 S.Ct. 2778, 81 L.Ed.2d 694 (1984)
Department of Revenue of Ore, v. ACF Industries. Inc.. 510 U. S. 332,
342 (1994)
Friends of Merrymeeting Bay v. Nextera Energy Resources. LLC. 11-cv
-38-GZS, D. Me.(2013)
\

Graham v San Antonio Zoological Society. 261 F.Supp.3d 711 (2017)
(V)

n
Gustafson, et al v Alloyd. Co.. Inc.. 513 U.S. 561 (1995)
Hill v. Coggins. 867 F.3d 499 (2017)
Humane Soc. of US v. Kienzle. 333 F. Supp.3d 1236, New Mexico (2018)
Kuehl v. Sellner (161 F.Supp.3d 678, 710-18 (N.D. Iowa 2016)
Lamex Foods. Inc.v Audeliz LeBron Corp.. 646 F. 3d 100,107, IstCir.
(2011)
PETA v. TriState Zoological Park of Western Maryland, et al. (424
F.Supp.3d 404 (2019)
Pierce v Underwood. 487 US 552 (1988)
PowerShare. Inc, v. Subtle. Inc.. No. 09-1625 (1st Cir. Mar. 1, 2010)
Rowley v. City of New Bedford. 413 F. Supp.3d 53, D. Mass. (2019)
Sikirica v. Nationwide Ins. Co.. 416 F.3d 214 (2005)
South Dakota v. Yankton Sioux Tribe. 522 US 329 (1998)
Strahan v Linnon. 967 F. Supp. 581, 623, D. Mass (1997)
Strahan v. Sec'v Mass. EOEEA. 19-CV-10639-IT, D. Mass., (April 30, 2020)
TVA v Hill. 473 US 153 (1978)
Univ.of Texas v. Camenisch. 451 U.S. 390,101 S.Ct. 1830 (1981)
Ventas. Inc, v. US. 381 F. 3d 1156 (2004)

(Vi)

n
Statutes
7 U.S.C. 2131, et seq
16 U.S.C. §1531, et seq
28 U.S.C. §1254(1)
28 U.S.C. §1746
Rules & Regulations
Federal Rule of Civil Procedure 65 (a)(2) Consolidation
50 CFR §17.3
50 CFR §17.21(g)
Other references
2A Federal Procedure Lawyer's Edition §3:790, 793
Captive-bred Wildlife Regulation, Notice of Proposed Rule, 58 Fed. Reg.
32637
Captive-bred Wildlife Regulation, Final Rule, 63 Fed. Reg. 48634-02,
1998 WL 597499 (Sept. 11,1998)
Wright, Miller, & Kane, Federal Practice & Procedure, 2nd Ed.,Vol. 11,
§§ 2951 (2018)

(vii)

In the
Supreme Court of the United States
Petition for Writ of Certiorari
Petitioner respectfully prays that a writ of certiorari issue to
review the judgment below.

Opinions Below and References
United States Court of Appeals. First Circuit
19-2000
Opinion on Appeal (Unpublished)

September 24, 2020

Petition for Rehearing Denied

November 10, 2020

United States District Court. Massachusetts
17-cv-11809
Opinion, Published

September 24, 2019

Order, Consolidation

February 12, 2019

-l-

\

f
Jurisdiction

Petitioner respectfully prays that a writ of certiorari issue to
review and vacate the opinion of the First Circuit Court of Appeals
issued on September 24, 2020. A timely petition for rehearing was
filed on October 8, 2020 and denied on November 10, 2020. This
petition is timely filed. (Order 589, April 15, 2020)
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).
Service has been provided to defense counsel as noted in the
declaration pursuant to 28 U.S.C. §1746.

-2-

n

n
Statement of Case

After a three-day bench trial and a view of the Buttonwood Park
Zoo, the lower court rendered its decision on Petitioner Joyce
Rowley's 16 U.S.C. §1540 Endangered Species Act (the "Act") citizen's
suit against the City of New Bedford, Massachusetts, owner of the zoo
where Asian elephants Ruth and Emily reside. The court found no
violations of the Act.
Rowley appealed raising three issues: that the lower court
decision was clearly erroneous and misinterpreted the definition of
harm and harassment; that the harassment exception did not apply as
Ruth and Emily were not kept for breeding; and that the decision to
consolidate a preliminary injunction for Ruth with the trial on the
merits was a reversible error. The Animal League Defense Fund and
People for the Ethical Treatment of Animals filed an amici curiae
brief in support of neither party.
On September 24, 2020, the U.S. Court of Appeals, First Circuit
three-member panel affirmed the lower court's decision. Rowley

-3-

o

n
sought a rehearing en banc, which was denied.

Rowley asks that the First Circuit opinion be vacated and that this
Court remand with instruction to reverse the lower court's opinion
accordingly.
Argument
Even as this Court sits during a zoonotic-based pandemic, and as
the world faces a sixth extinction, this time with anthropomorphic
origins, the Endangered Species Act is being subverted.
Because this case is precedent setting for all captive wildlife, it
will have far-reaching effects. But it may have also unintended
consequences to statutory construction that reach even further.
There were two key elements of the lower court's decision that
were at odds with standards for interpreting the governing statute
relative to implementing regulations. One element has frequently
been misinterpreted, and petitioner asks the Court to review it for
statutory construction. The second is in conflict with other cases in
the Fourth and Fifth circuits, and with at least two other district
-4-

n

n

courts.
The lower court granted an exception to the harassment "take" of
the Act, identified as 50 CFR §17.3 of the implementing regulations. It
then used a trade organization as a substitute for the USDA to
determine whether the zoo met or exceeded the Animal Welfare Act
(AWA), a federal statute (7 U.S.C. §2131). These two errors leave a
door open to similar errors in other types of cases.
A second error in the lower decision was one of settled law:
consolidating an injunction with the trial on the merits before
discovery began. The First Circuit failed to reverse, despite a conflict
with its own prior decisions.

Background
The term "take" (16 USC §1532(19)) includes "harass" and "harm"
as prohibited under 16 USC 1538(a)(1)(B) of the Act:
"The term "take" means to harass, harm, pursue, hunt,
shoot, wound, kill, trap, capture, or collect, or to attempt
to engage in any such conduct."
Under §1539 of the Act, "takes" are allowed if permitted by the U.S.

-5-

n

n

Fish & Wildlife Service (FWS). In 1978, FWS implemented regulations
to permit "captive-bred wildlife" (CBW) defined as having been
produced from parents that mated in captivity (50 CFR §17.3). FWS
required CBW to be registered under §17.21(g).
Between 1993-1998, the CBW regulations were being revised
during which an exception to the "harassment" take was created for
"captive wildlife," but only if the husbandry practices (which must
meet or exceed the Animal Welfare Act (AWA) standards), the
breeding procedures and veterinary care provisions are not likely to
cause injury (Id). "Captive wildlife" was not defined in the regulations.
Coming out of the CBW revisions, the new exception can only
have applied to endangered species of CBW, not generally to all
captive endangered species, in order to comply with the Act, for
reasons described in detail below. Otherwise, the regulations would
be in conflict with the statute.
As this exception has been interpreted by some circuits to apply
to all captive endangered species, not just those regulated for

-6-

n

n

breeding, clarification is needed by the Supreme Court.
The First Circuit affirmed the lower court's decision, which
assumed captive wildlife meant all endangered species held captive.
But Asian elephants Ruth and Emily, the subjects of this litigation,
were not held at the zoo for breeding (19-2000, Dkt. 14, Appeal Br., 5).
Nor are they captive-bred (Id). Applying the three-prong exception
does not make sense, as they are not subject to breeding procedures
or veterinary care that routinely confines, tranquilizes or
anesthetizes them.
Additionally, to analyze the first prong of the exception, the
lower court used an accreditation report from the Association of Zoos
& Aquariums (AZA), which did not mention the zoo's elephant
husbandry practices or the AWA, as meeting or exceeding the AWA.
Consequently, the First Circuit used the wrong standard of review.
As a question of law-determining whether the exception applied to
Ruth and Emily, the First Circuit should have performed a de novo
review.

-7-

n
The First Circuit's decision to affirm the lower court decision on
the issues of consolidating the preliminary injunction with the trial on
the merits is inconsistent with its prior decisions, with those of other
U.S. Circuit Courts, and with this Court.
Question #1 Argument
l.A. Properly interpreted, the harassment exception only applies
to members of endangered species in captivity for breeding to
promulgate the selected species to meet the goals of the Act.
The Endangered Species Act (16 USC §1532(19)) definition of
"take" and the FWS' implementing regulations define "harm" as
"...Harm in the definition of “take” in the Act means an act which
actually kills or injures wildlife...." (50 CFR §17.3).
"Harass" in the implementing regulations means:
"Harass in the definition of “take” in the Act means an
intentional or negligent act or omission which creates the
likelihood of injury to wildlife by annoying it to such an
extent as to significantly disrupt normal behavioral
patterns which include, but are not limited to, breeding,
feeding, or sheltering. This definition, when applied to
captive wildlife, does not include generally accepted: (1)
Animal husbandry practices that meet or exceed the
minimum standards for facilities and care under the
-8-

o

n

Animal Welfare Act, (2) Breeding procedures, or (3)
Provisions of veterinary care for confining, tranquilizing,
or anesthetizing, when such practices, procedures, or
provisions are not likely to result in injury to the wildlife."
(50 CFR §17.3)
The harassment exception for captive wildlife was added in 1998,
for the purpose of ensuring that the captivity would not not be likely
to cause injury. 1 (Captive-bred Wildlife Regulation, 63 Fed. Reg.
48634-02,1998 WL 597499 (Sept. 11,1998))
The Notice for the Proposed Rule provides a background that the
FWS has "been striving to achieve an appropriate degree of control
over prohibited activities involving living wildlife of non-native species
born in captivity" in the United States. (58 Fed. Reg. 32637, Emphasis
added) Regulations governing captive-bred wildlife (CBW) were
finalized in 1979, and 12 years later FWS began revising those
regulations.

1 Id, 48634. The Notice of the Final Rule begins: "The final rule amends the definition of
"harass" in 17.3 applied to captive wildlife to exclude generally accepted animal
husbandry practices, breeding procedures, and provisions of veterinary care that are not
likely to result in injury to the animal."

-9-

n

n

In the Proposed Rule, the purpose of the exception was clearly for
CBW, discussing the issue of captivity causing harassment, and
concluding with:
"It is proposed to modify the definition of "harass" in 50 CFR 17.3
to exclude normal husbandry practices such as humane and healthful
care when applied to captive-bred wildlife." (58 Fed. Reg. 32637,
Emphasis added)
The proposed definition of harass, although using the term
"captive wildlife," was focused on breeding:
"...This definition, when applied to captive wildlife,
does not include normal husbandry practices including,
but not limited to, provision of adequate, safe enclosures;
healthful diets, humane treatment; and confining,
tranquilizing, or anesthetizing for provision of medical
care or for artificial insemination procedures." (Id)
It is important to note that the entirety of the proposed rule was
on CBW, and the two terms, captive wildlife and captive-bred wildlife,
are used interchangeably.
Were the FWS' definition of the exception to apply to all captive
endangered species, not just those used in breeding, it would
contradict the Act. Any captive endangered species member,

-10-

n

n '

including native species, whether lawfully or unlawfully taken from
the wild could be harassed (taken).
But the FWS could not create a definition that exceeded the Act.
("... If the intent of Congress is clear, that is the end of the matter; for
the court, as well as the agency, must give effect to the
unambiguously expressed intent of Congress." (Chevron USA. Inc, v.
Natural Res. Def. Council. Inc.. 467 U.S. 837, 842-43,104 *109 S.Ct. 2778,
81 L.Ed.2d 694 (1984)).
Although "captive wildlife" wasn't defined, the regulations define
"captivity" as:
"Captivity means that living wildlife is held in a
controlled environment that is intensively manipulated by
man for the purpose of producing wildlife of the selected
species, and that has boundaries designed to prevent
animal, eggs or gametes of the selected species from
entering or leaving the controlled environment. General
characteristics of captivity may include but are not limited
to artificial housing, waste removal, health care, protection
from predators, and artificially supplied food." (§17.3,
Emphasis added)
In statutory construction, terms must retain the same meaning

-11-

n
throughout the statute ("identical words used in different parts of the
same act are intended to have the same meaning." Gustafson v Allovd
Co., Inc., 513 U.S. 561 (1995) quoting Department of Revenue of Ore, v.
ACF Industries, Inc.. 510 U. S. 332, 342 (1994)); terms shouldn't be
construed to make parts redundant ("It is true that the Court avoids
interpreting statutes in a way that 'renders some words altogether
redundant.'" South Dakota v. Yankton Sioux Tribe. 522 US 329 (1998));
and they must be taken in the context of the whole ("Statutes must be
construed 'as a symmetrical and coherent regulatory scheme, one in
which the operative words have a consistent meaning throughout.

i

ii

Sikirica v. Nationwide Ins. Co.. 416 F.3d 214 (2005)).
The FWS could not create an exception outside of those in the Act.
"Where Congress includes certain exceptions in a statute, the maxim
expressio unius est exclusio alterius presumes that those are the only
exceptions Congress intended. (Ventas. Inc, v. US. 381 F. 3d 1156
(2004), quoting TVAvHill. 473 US 153 (1978)).
The Act's only exceptions for a "take" is by permit (16 USC §1539)

-12-

n
or if the species is subject to a cooperative agreement between the
Secretary of the Interior and a state (16 USC 1535(g)(2)). Even so,
1535(g)(2) disallows the taking of species in Appendix I of the
Convention of International Trade of Endangered Species of Flora and
Fauna (CITES).
Therefore, the "captive wildlife" in the harassment exception can
only be construed as CBW and their progeny, that are in "captivity" to
produce members of the endangered species to prevent extinction.
Unfortunately, several courts in five circuits have used the
broader definition of captive wildlife indiscriminately, as seen below,
necessitating Supreme Court review.
l.B. The First Circuit erred in affirming the lower court's decision
without performing a de novo review.
Asian elephants Ruth and Emily are an Appendix I-listed species
and so not exempt under §1535(g)(2). Nor did the City have a permit
to take them under §1539. They were not acquired for breeding nor
were they bred.
Both elephants were captured from the wild and brought to the
-13-

!

U.S. prior to December 31,1973 when the Act was signed. Both are
"Pre-Act" elephants, but not exempt from the Act's takings clause
under 16 U.S.C. 1538(b)(1) as they were not used in a commercial
activity (Emily) or were not subsequently held in a commercial
activity (Ruth) (16 U.S.C. §1538(b)(l)). (ASPCA v. RBBB. Inc, et al. 502
F.Supp.2d 103 (2007)), (17-CV-11809, Dkt. 91, Opinion @Fn. 5)
Rowley rightly claimed that the harassment exception did not
apply (19-2000, Dkt 14, App. Br. @9).
As a question of law, the First Circuit should have performed a de
novo review of the harassment claims.
"This court, and the Supreme, have been clear that such questions
[of law] are subject to de novo review." Pierce v Underwood. 487 US
552 (1988)).
On appeal, the circuit court reviews for clear error with
deference to the lower court. However, on questions of law, deference
is not needed and the court reviews de novo. In the First Circuit:
"For questions of law, no practical difference exists
review under "contrary to law" and de novo law...To
-14-

o

n

complete the picture, we limn the standard of review at
this level. Here, too, the purely legal nature of the question
controls: we, like the district court, must afford de novo
review to the purely legal question..." (PowerShare. Inc, v.
Subtle. Inc.. No. 09-1625 (1st Cir. Mar. 1, 2010))
The First Circuit failed to perform a de novo review of the
harassment exception, compounding the misinterpretation.
The First Circuit erred in affirming the lower court's failure to
analyze both the harassment and the harm separately. (See: Graham
on Hill, supra.)
Then, the First Circuit failed to perform a de novo review on the
lower court's interpretation of "harm," in conflict with prior opinions
on the analysis of "harm" by the First Circuit, other circuits and this
Court. All have consistently held that "The proper standard for
establishing a taking under the ESA...has been unequivocally defined
as a showing of 'actual harm,' as it appears in the ESA statute..."
(American Bald Eagle v. Bhatti. 9F. 3d 163,1st Cir. (1993), Strahan v
Linnon, 967 F. Supp. 581, 623, D.Mass (1997), Strahan v.Sec'v Mass.
EOEEA. 19-cv-10639-IT, D.Mass., (April 30,2020)). And: "In the First

-15-

n

n

Circuit, [t]he proper standard for establishing a taking under the ESA,
far from being a numerical probability of harm, has been
unequivocally defined as a showing of harm." (Friends of
Merrymeeting Bay v. Nextera Energy Resources. LLC. ll-cv-38-GZS,
D.Me. (2013)).
And: "... courts have granted injunctive relief only where
petitioners have shown that the alleged activity has actually harmed
the species or if continued will actually, as opposed to potentially,
cause harm to the species." (Humane Soc. of US v. Kienzle. 333 F.
Supp.3d 1236, New Mexico, (2018)), quoting Amer. Bald Eagle).
Had they done so, the testimony by Rowley and Dr. Susan Mikota,
DVM regarding the elephants' chronic foot and skin abscesses, and
overwhelming videographic and photographic evidence of harm and
harassment in the record would have led to a far different outcome.
l.C. The First Circuit opinion is inconsistent with other courts by
affirming substitution of the AZA for the USDA in determining
compliance with the Animal Welfare Act
The First Circuit affirmed a decision that used a trade

-16-

)

J

organization, the Association of Zoos & Aquariums (AZA), as
substitute for the U.S. Department of Agriculture (USDA) in
determining compliance with the Animal Welfare Act.
The USDA is the Congessionally-designated agency for
administering the AWA (7 U.S.C. 2131 et seq).
Rowley demonstrated ongoing injury to both elephants
attributable to the elephants' care at the zoo. (19-2000, Dkt. 14, App. Br.
19-21) The City's expert admitted that the elephants' chronic skin and
foot abscesses were a result of spending 16 hours in their own waste
on a dirt floor while the zoo was closed each day. (Id, 21)
Yet the zoo is AZA-accredited, and maintained its AZA
accreditation even when cited by the USDA for a direct violation of
the AWA in 2014 (Id, 9). Although Ruth nearly died, suffered
hypothermia and frostbite that cost her the loss of skin, parts of both
ears, 5" of her tail and another 5" of tail to infection when the zoo
delayed surgery for four months, the AZA did not revoke the zoo's
accreditation nor take any other enforcement action.

-17-

n
In Hill v Coggins, a citizen's suit against the Cherokee Bear Zoo
for keeping grizzly bears in a concrete pit, the zoo used the
harassment exception as a complete defense, pointing to its clean
USDA record. (Hill v. Coggins. 867 F.3d 499 (2017)). On appeal to the
Fourth Circuit, plaintiffs argued that to meet the first prong of the
exception, the practice had to be both AWA-compliant and "generally
accepted." The Fourth Circuit let the AWA compliance by USDA stand,
and then used the AZA guidelines for bear enclosures as the
"generally accepted" component.
The dissent in Hill raised this issue of substituting a non­
government agency for the federally-designated USDA that sets AWA
standards for care, noting that the AZA has no legal authority in the
context of the Act, which has both civil and criminal penalties:
"The interpretation adopted by the majority would have
the standards to be applied to holders of captive, threatened
animals established, not by the FWS, but rather by some
amorphous set of "generally applicable" standards adopted
by the AZA (representing less than 10% of the zoos in this
country) or some other group. In analyzing the regulation, it
is important to recall that the statute provides criminal
sanctions for violations of its terms or of the regulations
-18-

n

n

adopted pursuant thereto—a fact the majority ignores. In
short, the ESA has both criminal and non-criminal aspects."
(Hill. 12)
The decision to use the AZA instead of the court's own view is also
inconsistent with three other recent cases.2 In Graham v. San Antonio
Zoological Society, the Fifth Circuit stated that the court could decide
for itself in the absence of USDA data (Graham v San Antonio
Zoological Society. 261 F.Supp.3d 711 (2017)). In Kuehl v. Sellner (161
F.Supp.3d 678, 710-18 (N.D. Iowa 2016) and PETA v, TriState Zoological
Park of Western Maryland, et al. (424 F.Supp.3d 404 (2019)) the courts
did just that.
"Kuehl provides several takeaways...the court
conducted its own, independent analysis of the evidence
presented — which included [USDA]' findings of previous
violations of the AWA — to determine whether the zoo's
animal husbandry practices met AWA standards. Finally,
the court conducted separate analyses of whether the zoo's
conduct "harmed" the animals and whether it "harassed"
them." (Graham. 28, 29)
The Fifth Circuit then looked at Hill:
2 Although these courts used an incorrect harassment exception, their analysis is of value
as the lack of compliance with the AWA, may be used in measuring compliance with the
Endangered Species Act.

-19-

n

o

"Further, as in Kuehl. the court in Hill analyzed previous
findings of AWA compliance by [USDA] as evidence of non­
harassment (or more precisely, as evidence that an
exhibitor's conduct fits within the "generally accepted
animal husbandry practices" exclusion), and analyzed
"harm" as a separate ESA violation from "harassment.
(Graham. 30)
III!

In the matter before it, the Fifth Circuit found:
"... this Court concludes that [USDA] determinations of
AWA compliance are evidence of AWA compliance for
purposes of ESA take liability, but the court must
independently assess the Zoo's animal husbandry practices
under the AWA." (Graham. 744).
Although the San Antonio Zoo was AZA-accredited, it was the
USDA that the court looked to for compliance with the AWA. None of
the decisions to date substitute the AZA for the USDA, or have
determined that AZA guidelines meet or exceed AWA standards.
During the View in this case, the lower court refused to see the
elephants in the 800 s.f. stalls where they spend most of their lives,
despite hearing the City expert's testimony that it caused injury to
their feet and skins. (19-2000, Dkt. 14, App. Br. 20)
Nor did the lower court allow Rowley to see or document the

-20-

o

n

elephants in their stalls (Id, and Petition for Rehearing, No. 19-2000, 9).
But the district courts in Kuehl and PETA performed views to see
for themselves the actual conditions of the living quarters of the
endangered species.
The First Circuit's affirmation is therefore inconsistent with the
Fifth Circuit, Fourth Circuit, and the federal district court decisions in
Iowa and Maryland on use of AZA as a substitute for the USDA or the
court's own judgment. As such, the ruling is also contrary to law.
(Chevron, infra.) Congress did not intend to permit a trade
organization to substitute for the USDA.
Question #2
The First Circuit erred in affirming consolidation of the
preliminary injunction with the trial on the merits pursuant to Fed. R.
Civ. Proc. 65(a)(2).
On the issue of consolidation, the First Circuit's decision to affirm
is inconsistent with its prior decisions, with those of other U.S. Circuit
Courts, and with this Court. Only a panel en banc can offer an opinion
that is inconsistent with a prior panel opinion of the same circuit (2A
-21-

n
Federal Procedure L. Ed. §3:793). Departure from precedent must be
supported by special justification. (Id. §3:790). Under the stare decisis
doctrine, no panel should be inconsistent with the Supreme Court's
decisions.
The First Circuit decision contravenes long-held Federal Rule 65
(a)(2)) law as it is contrary to its own and Supreme Court rulings
regarding Rule 65(a)(2). ("Although the rule facilitates the generally
admirable objective of saving time and duplication of effort, "there
are hazards inherent in fully disposing of cases in such an expedited
fashion-among them incomplete coverage of relevant issues and
failure to present all relevant evidence." (Lamex Foods. Inc.v Audeliz
LeBron Corp.. 646 F. 3d 100,107, IstCir. (2011), citing Caribbean
Produce Exch. Inc, v Sec'v of Health & Human Services. 893 F.2d 3,5,
1st Cir. (1989)). And,"...it is generally inappropriate for a federal court
at the preliminary injunction stage to give a final judgment on the
merits." (Univ.of Texas v. Camenisch. 451 U.S. 390,101 S.Ct. 1830
(1981)).

-22-

n

n

Federal Rule of Civil Procedure Rule 65(a) Consolidation states
that "before or after beginning the hearing on a motion for
preliminary injunction, the court may advance the trial on the merits
and consolidate it with the hearing." However:
"Ordering consolidation during the course of an preliminary
injunction hearing is reversible error when little or no notice is given
of this change and the effect is to deprive a party of the right to
present the case on the merits. (Wright, Miller, & Kane, Federal
Practice & Procedure, 2nd Ed.,Vol. 11, §§ 2951 (2018))
Here, Rowley rightly objected to the consolidation as there was
no notice of it; the City had not served an Answer; and no discovery
had been held. Further, the preliminary injunction was only for one
of the two elephants. No filings had been made as to Emily's need for
a preliminary injunction and the case should have been bifurcated.
For these reasons, the decision to consolidate the injunction with
the trial on the merits should be reversed.
Conclusion
These matters are of national importance. Despite the clear intent
of Congress to protect endangered species from harm and harassment

-23-

n

■ n

nearly half a century ago, a simple misinterpretation of the FWS
regulations put all native and non-native captive endangered species
in harm's way. Petitioner asks the Supreme Court to review and
correct this error on behalf of Asian elephants Ruth and Emily, and all
endangered species held in captivity, often in horrendous conditions.
In each of the matters presented to this Court, a panel of the First
Circuit went against its own prior decisions without justification: A
question of law is reviewed de novo; a consolidation before discovery
is reversible; harm means harm.
Petitioner prays that this Court review and remand with direction
to reverse the lower court's decision.
Respectfully submitted,

-24-

